<html>
<title> - IS IT WORKING: REVIEWING THE U.S. DEPARTMENT OF VETERANS AFFAIRS' COMPENSATED WORK THERAPY PROGRAM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                      IS IT WORKING: REVIEWING THE
 U.S. DEPARTMENT OF VETERANS AFFAIRS' COMPENSATED WORK THERAPY PROGRAM

=======================================================================

                                HEARING

                               before the

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 14, 2011

                               __________

                           Serial No. 112-37

                               __________

       Printed for the use of the Committee on Veterans' Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
72-243                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dfb8afb09fbcaaacabb7bab3aff1bcb0b2f1">[email&#160;protected]</a>  


                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
MARK E. AMODEI, Nevada
ROBERT L. TURNER, New York

            Helen W. Tolar, Staff Director and Chief Counsel

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                      BILL JOHNSON, Ohio, Chairman

CLIFF STEARNS, Florida               JOE DONNELLY, Indiana, Ranking
DOUG LAMBORN, Colorado               JERRY McNERNEY, California
DAVID P. ROE, Tennessee              JOHN BARROW, Georgia
DAN BENISHEK, Michigan               BOB FILNER, California
BILL FLORES, Texas

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                           December 14, 2011

                                                                   Page

Is It Working: Reviewing the U.S. Department of Veterans Affairs' 
  Compensated Work Therapy Program...............................     1

                           OPENING STATEMENTS

Chairman Bill Johnson............................................     1
    Prepared statement of Chairman Johnson.......................    21
Hon. Joe Donnelly, Ranking Democratic Member.....................     2
    Prepared statement of Congressman Donnelly...................    21

                               WITNESSES

Anthony Campinell, Ph.D., Director, Therapeutic and Supported 
  Employment Programs, Veterans Health Administration, U.S. 
  Department of Veterans Affairs.................................     4
    Prepared statement of Mr. Campinell..........................    22

    Accompanied by:

      Anthony Kerrigan, Ph.D., ABPP, Coordinator, Vocational 
          Rehabilitation Services, Michael E. DeBakey Veterans 
          Affairs Medical Center, Houston, TX
      Sean Kayse, Coordinator, Homeless Veteran Supported 
          Employment Program, Iowa City Veterans Affairs Medical 
          Center, Iowa City, IA (Former Compensated Work Therapy 
          Participant)


                      IS IT WORKING: REVIEWING THE
                  U.S. DEPARTMENT OF VETERANS' AFFAIRS
                    COMPENSATED WORK THERAPY PROGRAM

                              ----------                              


                      WEDNESDAY, DECEMBER 14, 2011

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
              Subcommittee on Oversight and Investigations,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:07 a.m., in 
Room 334, Cannon House Office Building, Hon. Bill Johnson 
[chairman of the Subcommittee] presiding.
    Present: Representatives Johnson, Roe, Donnelly, McNerney, 
Barrow.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Mr. Johnson. Good morning. This hearing will come to order.
    I want to welcome everyone to today's hearing titled ``Is 
It Working: Reviewing VA's Compensated Work Therapy Program.''
    The Compensated Work Therapy Program or CWT is one of the 
VA's vocational rehabilitation programs designed to assist our 
war fighters back into the workforce.
    The program is specifically geared toward veterans who have 
suffered from mental illness, delivering a titled approach for 
reemployment that provides support and guidance through the 
process.
    In a time of high unemployment, especially among veterans, 
we all must make every effort to match qualified workers with 
suitable jobs. The CWT Program does just that, matching 
disabled veterans with employers.
    When done correctly, the CWT Program is a win-win. We know 
of several success stories including the program at Bedford, 
Massachusetts that has partnered with over 15 community 
businesses.
    The businesses benefit from having qualified workers adding 
to productivity. And the veterans benefit, obviously, from 
being employed.
    However, we also know of situations where little, if any, 
emphasis is placed on the program. Few partnerships are made 
with the community and in the end, it is the veteran who 
suffers.
    We share a common goal of assisting our veterans to reenter 
the workforce. A discussion on what the VA can do to sustain 
successful programs and rejuvenate struggling ones in addition 
to what Congress and this committee can do to help will better 
enable us to achieve that goal.
    It is also my hope that today's hearing will provide the 
Subcommittee with a clear picture of the structure of the CWT 
Program from its national leader all the way down to the 
individual veteran at a VA facility.
    I also look forward to today's testimony and the chance to 
discuss how we can ensure that the CWT Program is rolled out 
consistently and effectively all across the country.
    How can successful programs share their best practices with 
struggling program? How can national oversight be improved? 
What kind of metrics are needed to effectively gauge success?
    It is not good enough merely to have well-intentioned 
programs. We need effective ones that consistently deliver 
results and improve the lives of our veterans.
    Again, I thank everyone for being here this morning, and I 
will now yield to Ranking Member Donnelly for his opening 
statement.
    [The statement of Bill Johnson appears on p. 21.]

            OPENING STATEMENT OF HON. JOE DONNELLY,
                   RANKING DEMOCRATIC MEMBER

    Mr. Donnelly. Thank you, Chairman Johnson, for the 
opportunity to discuss the Department of Veterans Affairs' 
Compensation Work Therapy Program and its role in the 
vocational rehabilitation of those who have served our country.
    Occupational specialties have been an important part of the 
lives of our veterans. Their identities are linked to their 
military occupation. Therefore, illnesses that limit a 
veteran's ability to work once they have transitioned out of 
the military can have a significant impact on their self-
esteem.
    Being part of the Committee on Veterans' Affairs for the 
past 5 years, I am aware of the unique needs veterans with 
mental illnesses have. Homeless veterans, veterans with brain 
injuries, post-traumatic stress disorder, and other mental 
health problems require a prolonged individualized 
rehabilitation plan.
    Providing them a rehabilitation plan that will help them 
lead an independent life is critical. Providing them the tools 
they need to obtain meaningful employment is even more. And 
that is why CWT is critical for our veterans.
    The benefits of the CWT Program are many. It provides 
veterans with skills training, job development, placement 
services, and employment support.
    But not a lot is known about this program and I fear that 
not many veterans know about the program as well. Because a 
veteran must be referred by a clinician, many veterans that 
would benefit from CWT are not aware of it and may not know to 
ask their doctor about it.
    Recently I came across a blog discussion on CWT. And in it, 
most of the individuals talk about their positive experience 
and discuss their successful rehabilitation.
    But there are a couple of individuals who said their local 
VA clinic was short-staffed and did not provide the service and 
treatment needed.
    Programs like CWT need to be successful nationally. It is 
unfair for veterans to get poor quality treatment in some VA 
clinics while others get better treatment. These regional 
disparities undermine the good work VA is capable of providing 
and is providing in so many places.
    I look forward to learning more about this program, the 
services you provide to our veterans in need, and what you are 
doing to provide consistent treatment to all veterans.
    Thank you, Mr. Chairman, and I yield back.
    [The statement of Joe Donnelly appears on p. 21.]
    Mr. Johnson. I thank the gentleman for yielding back.
    I would like to now see if any of our other colleagues, do 
you have opening statements or would you like to--if you would 
like to, you are certainly able to make one.
    Mr. McNerney. No thank you, Mr. Chairman.
    Mr. Johnson. Okay. Well, thank you.
    I now invite the first panel to the witness table. On this 
panel today, we will hear from Dr. Anthony Campinell, the VA's 
director of Therapeutic and Supported Employment Programs.
    Dr. Campinell is accompanied by Dr. Anthony Kerrigan, 
coordinator of Vocational Rehabilitation Services at the 
Michael E.--do I have that right--DeBakey, DeBakey----
    Mr. Kerrigan. Yes.
    Mr. Johnson [continuing]. Veterans Affairs Medical Center 
in Houston, Texas. Dr. Kerrigan should be able to answer 
questions related to the CWT Program at the local level there.
    They are both accompanied by Mr. Sean Kayse. Mr. Kayse 
spent 4 years on active duty with the U.S. Army having 
supported combat units as an ammunition specialist while on 
deployment in Iraq.
    After his discharge from the Army in 2005, Mr. Kayse was 
diagnosed with PTSD. He then went on to participate in the Iowa 
City, Iowa VAMC's CWT Supported Employment Program for 
approximately 5 months.
    Upon finishing the program, he was hired as a medical 
support assistant at the VAMC and now serves as coordinator for 
the Homeless Veteran Supported Employment Program for the Iowa 
City VAMC.
    Mr. Kayse is also a part-time student at Upper Iowa 
University where he is using his GI Bill benefits to pursue a 
bachelor's degree in public relations. He will be able to help 
answer Members' questions about the CWT Program as experienced 
at the individual level, and we are certainly glad to see a 
success story come out of this program.
    Thank you for being here with us today.
    Dr. Campinell, your complete written statement will be made 
a part of the hearing record, and you are now recognized for 
five minutes.

   STATEMENT OF ANTHONY CAMPINELL, THERAPEUTIC AND SUPPORTED 
   EMPLOYMENT PROGRAMS, VETERANS HEALTH ADMINISTRATION, U.S. 
DEPARTMENT OF VETERANS AFFAIRS ACCOMPANIED BY ANTHONY KERRIGAN, 
  COORDINATOR, VOCATIONAL REHABILITATION SERVICES, MICHAEL E. 
 DEBAKEY VETERANS AFFAIRS MEDICAL CENTER, HOUSTON, TEXAS; SEAN 
   KAYSE, COORDINATOR, HOMELESS VETERAN SUPPORTED EMPLOYMENT 
PROGRAM, IOWA CITY VETERANS AFFAIRS MEDICAL CENTER, IOWA CITY, 
       IOWA (FORMER COMPENSATED WORK THERAPY PARTICIPANT)

                 STATEMENT OF ANTHONY CAMPINELL

    Mr. Campinell. Thank you.
    Chairman Johnson, Ranking Member Donnelly----
    Mr. Johnson. Sir, could you move the microphone up and then 
press the button. Hopefully the light will come on.
    Mr. Campinell. My apologies.
    Mr. Johnson. There you go. Thank you.
    Mr. Campinell. Chairman Johnson, Ranking Member Donnelly, 
and Members of the Subcommittee, thank you for the opportunity 
to discuss the Department of Veterans Affairs' Compensated Work 
Therapy or CWT Program.
    I am accompanied today by my colleague, Dr. Anthony 
Kerrigan, CWT coordinator at the Houston VA Medical Center. 
Also accompanying me today is Mr. Sean Kayse, a U.S. Army 
veteran recently hired by VA, who will discuss his experience 
in the CWT Program in Iowa.
    CWT provides veterans whose lives have been disrupted by 
mental illness or coexisting physical disabilities with a 
supportive, stable, structured approach to help them achieve 
their employment goals.
    Currently there are almost 750,000 veterans under age 50 
not in the labor force due to various disabilities or illnesses 
including serious mental illness.
    Employment is a vitally important personal goal. It 
contributes to a positive self-image and sense of purpose. One 
of the best ways to give someone an identity other than being 
disabled or homeless or mentally ill is to give them a job.
    In the 27 years since Congress formally established CWT, 
the program has grown substantially doing that. In fiscal year 
2011, over 41,000 veterans have received CWT services at 187 
locations. And an additional 26,000 veterans received other 
forms of vocational rehabilitation.
    CWT programs provide vocational rehabilitation services by 
medical prescription to veterans, many of whom have extensive 
barriers to employment.
    Again, we find that a majority of persons with a disability 
want to work and the core philosophy of CWT is that all persons 
with a disability can work when provided with the necessary 
supports. And no one should be excluded from the opportunity to 
participate in meaningful employment.
    CWT programs serve eligible veterans including veterans 
with service-connected disabilities, veterans who have been 
involved in the justice system, and veterans with addictive 
disorders. Many have serious mental illness including psychotic 
disorders, serious physical disabilities with co-occurring 
mental health diagnoses, and spinal cord injury and traumatic 
brain injury.
    In addition, CWT programs include homeless veterans and 
veterans who have been out of the workforce for an extended 
period of time, in some cases since discharge from the 
military.
    Collectively these efforts are making a difference. All 
tolled, our programs provide paid work experience, competitive 
employment, and vocational services to almost 70,000 veterans 
each year, approximately 11 percent of whom are OEF, OIF, and 
OND veterans.
    In fiscal year 2011, out of 11,266 veterans who were 
discharged from various CWT programs, 27 percent were placed in 
community competitive employment at discharge, with an 
additional 8 percent leaving CWT to pursue formal training, 
higher education, or volunteer work.
    Since March 2011, the Homeless Veteran Supported Employment 
has served 2,564 veterans, 20 percent of whom have been placed 
in competitive employment.
    We know there is a growing demand for CWT services. When I 
talk to veterans about what the program does, they almost 
always want to know more about how they can sign up and what 
possibilities it may hold for them.
    To meet their needs, we are constantly looking for new ways 
to prepare them for work and find them jobs, to help them own 
an identity they can be proud of.
    Thank you for the opportunity to share information about 
VA's efforts to provide vocational rehabilitation services to 
veterans. VA is dedicated to improving veterans' overall 
quality of life through a vocational rehabilitation experience 
in which veterans learn new job skills, strengthen successful 
work habits, and regain a sense of self-esteem and self-worth.
    My colleagues and I are prepared to answer any questions 
you may have. Thank you.
    [The statement of Anthony Campinell appears on p. 22.]
    Mr. Johnson. Thank you, Dr. Campinell.
    We will now begin with questions and I will yield myself 
five minutes.
    Dr. Campinell, the Bedford, Massachusetts CWT Program is 
one we have found to be very successful.
    Can you highlight the approximate number of positions 
there?
    Mr. Campinell. I can, sir. Bedford is a very specialized, 
unique program. I had worked there. I started my career there 
in 1972, and I am still using part of their facility as my 
office as the national director. So it is good to be close to 
the program.
    The CWT Program at Bedford, which has three major 
components, one is transitional work, which is noncompetitive, 
the other is supported employment, which is competitive 
employment in the community, and the third is VCT, which is 
what they call the veterans construction team, their weekly 
payroll to veterans, the amount of money paid to veterans each 
week is between 50 and 60,000 dollars which makes it one of the 
largest programs in the country.
    Mr. Johnson. We are probably going to get into some of 
those kinds of details. Specifically, though, I am looking for 
the approximate number of positions of veterans that are 
employed through the program there. Do you have that number?
    Mr. Campinell. There are 180 veterans on the payroll each 
week, sir.
    Mr. Johnson. Okay. Can you give us an idea of some examples 
of the types of jobs that are performed by these veterans?
    Mr. Campinell. I can. There are veterans that are working 
within the medical center providing services in the janitorial 
department, housekeeping, grounds, various engineering 
departments, dietetics. It is pretty widespread throughout the 
medical center.
    And the same thing is true in the community. There are a 
number of entities in the community, both business and other 
Federal agencies, that are engaged and partnering with the 
Bedford program.
    Mr. Johnson. Excellent. How many programs and agreements 
have been developed in the Bedford area and the community and 
can you share with us some of the names of some of those 
business partners?
    Mr. Campinell. I can, sir. There is a total of 17 as of 
last August, 13 companies and four Department of Defense 
entities.
    And so the example at Fort Devens 99th Reserve Unit, 
Hanscom Air Force Base, Otis National Guard Base, and some of 
the private entities are Brooks Management which runs a 
cafeteria system in a business community, Diversified 
Technology, the Chelsea Soldiers Home, the Town of Burlington, 
Middlesex Community College, the Caritas Hospital System, and a 
number of others that are similar.
    Mr. Johnson. The list goes on.
    Let me make sure I understood correctly. You started your 
career at Bedford, right?
    Mr. Campinell. Yes, sir.
    Mr. Johnson. So is it safe to say that you had something to 
do with putting this program in place there at Bedford?
    Mr. Campinell. Well, Bedford had a program in operation in 
one form or another long before I got there. In fact, post 
World War II, they were using work as part of the treatment for 
veterans.
    And when I came there in 1972, it was just formalizing 
itself into a program that used a more structured model for 
work and employment. But I was there I think when it started to 
engage most directly with private sector businesses who were 
interested in partnering with the VA and serving veterans.
    Mr. Johnson. Well, I think that is great that you have that 
history and how you are now directing the national program and 
how you are going to emulate that program across the country 
because, as we said, as I said in my opening statement, we have 
examples of tremendous successes like the one we have there and 
then we have some others that, you know, they are about on 
their two and a half strikes in terms of effectiveness. So I am 
interested in that.
    Can you break down how long it takes to get a veteran 
employed in a successful program such as Bedford and give us an 
idea? What is the time frame?
    Mr. Campinell. If by employed, you mean engaged in the 
program, CWT is a clinical program.
    Mr. Johnson. From the time the veteran comes in until the 
time they are assigned to a position or get a position.
    Mr. Campinell. It is approximately 30 days around the 
country.
    Mr. Johnson. Okay. And I am sure you have looked at all the 
programs across the country. What about some of the less 
successful ones?
    Mr. Campinell. The average, as we understand it, is 
approximately 30 days.
    Mr. Johnson. Let me go back and re-qualify my question.
    Mr. Campinell. Yes, sir.
    Mr. Johnson. What is the time frame at Bedford?
    Mr. Campinell. Bedford is generally approximately the same 
as far as I know.
    Mr. Johnson. Okay. And so if the average is 30, then you 
have obviously got, across the country, you have some that are 
far worse.
    Mr. Campinell. We have some less and some that are more. 
The problems tend to lie I think in the smaller programs where 
there are less resources.
    The clinical approach is the same at every location, 
transitional work and supported employment under medical 
prescription.
    When there is a program with, say, for example, two staff, 
I think the process of getting into the program might tend to 
take a little bit longer, not because there is resistance 
obviously to having veterans participate, but because caseloads 
tend to be full and the work opportunities that may be 
available might be more limited due to the size of the medical 
center or the size of the program itself.
    Mr. Johnson. Okay. All right. My time has expired. We may 
have multiple rounds of questions, but I yield now to the 
Ranking Member, Representative Donnelly, for his questions.
    Mr. Donnelly. Thank you, Mr. Chairman.
    And, Dr. Kerrigan and Dr. Campinell, I want to thank you 
for your service to our veterans.
    And, Mr. Kayse, thank you for your service on behalf of our 
country. We have our freedom because of the work of you and all 
the other veterans who have served. And we are much in your 
debt.
    And I want to ask you, how did you hear about this program 
and how did you become familiar with it and how did it work for 
you?
    Mr. Kayse. Actually, my wife, who also is an Army veteran, 
was enrolled in therapy in the VA medical center in Iowa City. 
She met with a vocational rehabilitation specialist and asked 
me to join her. And that is where I first made contact with the 
vocational rehabilitation.
    So we met and I went to my primary care provider. And they 
put in a consult for me to get into the program.
    Mr. Donnelly. What processes did you go through in the 
program? What did you learn? What kind of features did it have 
for you?
    Mr. Kayse. Mostly resume writing skills, job application 
skills, job seeking skills, kind of like job development. Also 
just having the confidence that you have somebody helping you 
with the whole process, it was huge because you fight that and 
feel like you are alone the whole time. So just having someone 
that was following along support and helping me through the 
process was a great asset.
    Mr. Donnelly. Dr. Kerrigan, how do you make sure that the 
veterans in your area know of the existence of this program?
    Mr. Kerrigan. Congressman Donnelly, thank you.
    The program in Houston at the Michael E. DeBakey VA Medical 
Center has been around for several decades as well. We have a 
program that has been growing over the last 20 years.
    We provide mental health forums where we meet with all the 
mental health, with the executive and the providers who are 
mainly psychiatrists, psychologists, social workers, nurse case 
managers. We present the program to them. Sometimes we have 
successful candidates who have completed the program, gone back 
to work. Some have been employed at the VA. They present as 
well.
    And we have a business advisory council that meets once or 
twice a year with community partners. I think you all have a 
list of those partners. These are people with the City of 
Houston Veterans Affairs.
    We work closely with the VA regional office, Vocational 
Rehabilitation & Employment services, Advocacy, Inc., and the 
State agencies, Workforce Solutions, Texas Veterans Commission, 
Gulf Coast Community Services, and then there are other private 
and some private nonprofits, Homeless Veterans Reintegration 
Program through Good Will Industries, Houston Launch Pad, 
Career and Recovery Resources.
    These are agencies that are also working with veterans. We 
partner with them. Sometimes, you know, they piggyback or we 
piggyback on what they can provide, services.
    The CWT Program itself, we do not have money to provide to 
veterans for training or certification, but we can partner with 
the State. We have these people come into our agency on a 
weekly basis.
    Mr. Donnelly. Let me ask you and Mr. Kayse. One of the 
things we often hear in our Committee is all the veterans who, 
despite the presence of The American Legion, the VFW, the 
Paralyzed Veterans of America, DAV, there are so many veterans 
who once they are out, just want to get on with their life and 
want to try to kind of not have to think about that portion of 
their life so much on a regular basis. To those veterans who 
are struggling, do you have any recommendations as to how we 
can let them know that, hey, there are other programs out there 
to help you?
    Mr. Kerrigan. On Wednesday night last, I went with a 
colleague to the Salvation Army. We have a partnership there. 
There were 70 veterans in the room. Some have, you know, post 
Vietnam era veterans and veterans of the most recent wars. We 
talk about the services of the VA.
    These veterans are going to be there for 90 days on a grant 
and per diem that the VA is funding. We talked about benefits. 
We talked to people who are in the process of having their 
disability adjudicated with the VA and also with Social 
Security. So our goal was to tell people that, you know, we 
have these programs. There is hope.
    We know from experience--I have worked at the Houston VA 
since 1993 and before that in Louisiana, New Orleans, and 
Shreveport--that, you know, in three to five or six or 9 months 
at the most, you will be on your feet. You will have a place to 
live because of the HUD-VASH and Voucher Program. There is 
treatment at the VA for addiction and other psychiatric 
disabilities.
    When you come and work with our program, you will have a 
vocational counselor case manager who will be that same person 
who will follow through for three, six, and 9 months. And we 
have, you know, a track record of seeing, you know, maybe five, 
six, seven hundred veterans a year. And so we can tell veterans 
this is what it will take and that there is a solution.
    And a veteran told me I have been 4 years homeless, I want 
it to end, and we can assure the veterans that this is the end 
of it.
    There is comprehensive treatment in the VA for addiction 
and other psychiatric disorders that no other health system, 
not my home country in Ireland and I worked in the UK, Canada, 
there is not that kind of comprehensive care in any other 
system and it is there. We have well-qualified staff.
    Mr. Johnson. Thank you, Mr. Kerrigan. We are going to have 
to cut that question off at this point.
    I yield now to my colleague from Tennessee, Dr. Roe.
    Mr. Roe. I thank the Chairman for yielding.
    And just to go ahead with what Mr. Donnelly, go ahead and 
finish your comments, if you would. Dr. Kerrigan.
    Mr. Kerrigan. Thank you, Congressman Roe.
    I was going to say we have the resources. Certainly Houston 
has a lot of resources. We have 20 employment specialists and 
voc rehab people on the staff in Houston. We have in the last 
decade doubled the number of the staff.
    We have initiated what is called the individual placement 
and support model where an employment specialist works with a 
manageable number on his caseload, 25 on the average to 30 
veterans, with the most severe psychiatric disabilities and 
also veterans who are homeless.
    And they are in the community every day. They have 
government vehicles, cell phones, electronic equipment to stay 
in touch with records.
    And so, you know, for people living in the community who 
are looking for real jobs in the community with benefits, we 
have about 46 percent of people working at any time and there 
are about 300 people in the Supported Employment Program in the 
community.
    Then in the hospital, we have support from leadership for 
physicians in compensated work therapy transition work. This is 
for people who may be living at Salvation Army or the Star of 
Hope or Santa Maria or another residential treatment center.
    We have positions where we can put veterans to work in the 
hospitals, some in the community where while they are in 
treatment and they need to be in treatment in partial hospital 
programs or on treatment teams, they can work every day.
    And that counselor or employment specialist sits on the 
veteran's treatment team. So this is not virtual. This is in 
reality. They sit on the ACT team. That Assertive Community 
Treatment. They sit with the psychiatrist, psychologist, nurse 
manager, case worker. And often our employment specialists are 
the people are seeing these veterans on a daily basis and can 
give feedback back to the treatment team and the psychiatrist.
    Mr. Roe. Let me go ahead and I can see that the south Texas 
has not changed your accent.
    To go back to personal experience of when I was in the 
military, I was drafted when I was halfway through my training. 
So I had two more years of training to complete. When I 
separated from the military in 1974, nobody said how are you 
doing, what are you going to do when you leave. It was just 
``adios!''
    But I had a place to go back to and I had a job to do 
already set and waiting for me. Many veterans do not have that. 
I think that probably is the single most important thing that a 
veteran can have when they leave is their family to go home to, 
someone waiting for them, and, secondly, a job to go to, a 
profession.
    And when you find yourself separated from the military and 
then nothing to do when you get out, it creates these problems 
that we are dealing with decades later.
    I am so thankful that General Shinseki has really made 
homeless veterans a priority because those veterans, both men 
and women, have really literally lost everything, no place even 
to live.
    So you all are getting the hardest of the hard to employ.
    Volunteer Services for the Blind has two agencies in our 
area and I can see the benefit of that tremendously.
    So if you take a veteran who is homeless and get him into 
gainful employment, however many steps you have to go through 
to do it, that is a huge. For that one veteran, that is a 
success and changes their life.
    And, Mr. Kayse, I want to ask you. I saw in the testimony, 
it was a 20 percent placement, I think, for jobs for the 
homeless veterans.
    What do you think the impediment is there? What can we do 
differently or are these just severely mentally disturbed 
people that cannot work in the regular workforce? What do you 
see are the things we need to do to improve that 20 percent? 
That is good, but it needs to be much better.
    Mr. Kayse. The biggest thing that I face in Iowa City is 
when you encounter a veteran who has been homeless for more 
than just a short time. They get to a routine, a way of life. 
And to change that by sending them to work is one of the 
hardest things they have to face.
    But through treatment teams, psychology, psychiatry, we are 
able to get the veteran back on his feet and then start even 
looking for a job sometimes in some cases.
    I think the support that I receive in Iowa City from my 
treatment teams is very, very high and very, very well-taken.
    Mr. Roe. Will we have a second round?
    Mr. Johnson. We will.
    Mr. Roe. Okay.
    Mr. Johnson. You have time. Let him answer that.
    Mr. Roe. What about the 80 percent? Obviously the 20 
percent are the success. What about the other eight out of ten? 
What happens to them? Do they choose not to be in the program 
or are just not able to participate in getting gainful 
employment? What are the impediments, I guess, is what I am 
asking?
    Mr. Kayse. I would think that the impediments of the other 
80 percent in keeping them from getting employed is, one, fear. 
When we discharge from the military, sometimes you are just 
shuffled out the door and you have to face life by yourself.
    And when you start in a government agency again, they have 
a fear of saying, well, the government did not help me then, 
why would they help me now.
    The word of mouth in the shelters and on the streets is 
growing that the VA is changing and that the VA is becoming a 
more positive place to be. There are so many war stories and 
horror stories for so many years that now it is starting to get 
where those are starting to go away.
    In my position, I do go on the streets and I am able to go 
into shelters. And now I have veterans calling me out of the 
blue looking for employment. The word of mouth is spreading. 
This program is taking off and it is changing. So I expect to 
see that 27 percent disappear very soon.
    Mr. Roe. I thank the chairman. I yield back.
    Mr. Johnson. I thank the gentleman for yielding back.
    I would like to go now to our colleague from California, 
Mr. McNerney.
    Mr. McNerney. Thank you, Chairman Johnson, and thank you 
for having this hearing.
    The thing I am hearing this morning is that, and this 
reaffirms what I believed, is that it takes person-to-person 
interaction. It takes several people to deal individually with 
a single veteran to help him through this transition. And that 
is the challenge we have is providing the resources for the VA 
department and for other agencies and other NGOs to provide 
that person-to-person help.
    Mr. Kayse, your story was about that. Until there was 
somebody actually working personally with you, it was very 
difficult and that is what helped you make that transition. So 
that is our challenge.
    And I know, as my colleague, Mr. Roe, said, the secretary 
has indicated that homelessness is his highest or one of his 
highest priorities and, yet, there are about a half a million 
homeless veterans. Is that the right number?
    Mr. Roe. Yeah.
    Mr. McNerney. I am really glad to hear how effective this 
program is. I just want to follow-up with the Ranking Member's 
question about how accessible it is to veterans.
    Do they feel that they can approach this kind of program 
and find a place in it? Are very many of them turned away? Are 
there a lack of resources that are preventing you from meeting 
the needs that are put upon you in this regard? Dr. Campinell.
    Mr. Campinell. We receive specialized funding specifically 
to hire veterans who are homeless or formerly homeless using 
the Schedule A9 competitive hiring authority who will provide 
services, specifically supported employment services, 
specifically and directly to homeless veterans. And they have 
been allocated at every medical center and into the various 
treatment programs for homeless veterans.
    So when a homeless veteran enters through the outreach 
system and proceeds through the residential rehab treatment 
programs or to the grant and per diem or the HUD-VASH Program, 
there is a supported employment VRS working in CWT along with 
the homeless case managers who are specifically focused on 
helping those individuals find competitive employment using the 
principles of supported employment which basically as a 
treatment program is the integration of vocational services 
into treatment rather than post treatment.
    And we believe that this effort of hiring homeless 
veterans, individual veterans who are themselves or have been 
homeless will be very successful in helping to increase access 
to work for homeless veterans.
    Mr. McNerney. Well, as a Member of Congress with a 
constituency of veterans and so on, I want to make sure that 
this program and other successful programs are available in my 
district and my region.
    Do I have the ability to contact or to tell my VSOs that 
they can contact an organization locally to help their clients?
    Mr. Campinell. Yes, sir. We have a web page, a public web 
page, cwt.va.gov, that has the phone number and address for 
every CWT program around the country.
    In order to participate, veterans have to enter the health 
care system. They have to enroll for health care. They have to 
be assigned a primary care provider. They may enter into other 
treatment programs for addiction disorders, for example, or 
depression or whatever. But it opens the door to treatment.
    Work is sometimes the approach that attracts individuals 
into the health care system and gives VHA an opportunity to 
provide, to address other services. Work is a huge issue for 
many people and it is a huge draw and attraction is the chance 
to go to work in spite of your disability.
    And when they come into the system, it gives our clinical 
teams across the spectrum an opportunity to work with that 
veteran, give them a physical exam, blood test, check for 
diabetes, provide addiction counseling. It is a tremendous, we 
will say, opening step in the process of providing 
comprehensive care to a veteran.
    Mr. McNerney. Well, when I leave this hearing, I am going 
to call the VSOs back home and make sure they know about this 
program. And I hope that they say, yeah, we know about it, we 
are participating in it, and it is helping our local folks. So 
that is something I am looking forward to doing today.
    Mr. Kayse, you indicated that your experience is that 
people out there on the street are becoming more aware of not 
only this program but the attitude about the VA being there to 
help them as opposed to just some big bureaucracy.
    Do you feel that that is local specific to Iowa and Iowa 
City or do you think that is sort of a national trend?
    Mr. Kayse. I truly believe that it is starting to spread 
nationally. I have contacts within the military and still talk 
to them on a weekly, monthly basis, or whatever, and they 
mention the VA health care system.
    And, of course, being an employee, I am able to advocate 
for the VA, but, you know, they tell me that they are going to 
start going to the VA and encouraging in their community. So I 
think it is definitely getting national attention and it is 
growing.
    Mr. McNerney. Well, I think this is one of our big 
challenges is to get the word out that the VA really is out 
there to benefit these individuals and that we need to do 
everything we can to make sure that they get that work.
    Thank you, Mr. Chairman. I yield back.
    Mr. Johnson. Thank you.
    We will go into a second round now and, Dr. Campinell, I 
would like to come back to the questioning that I ended with.
    How long has the longest veteran been waiting for 
employment through CWT? Do you have any idea on that?
    Mr. Campinell. I can only estimate based on informal 
communication that there may have been veterans that have 
waited perhaps 3 months to get into the program, but I think it 
is relatively isolated.
    And, in fact, as part of the mental health audit of waiting 
times, they will also be looking at CWT across the country. So 
that will give us more specific information that will help us 
understand where the wait list problems might be and how we can 
then best address it.
    I do not think it happens very often because I do not get 
complaints or calls from my field staff to indicate that it is 
a huge issue at a medical center.
    Mr. Johnson. And I am glad you are not getting those kinds 
of complaints, but I am not sure that that is indicative of the 
success of the program nationwide.
    I share my colleague from California's concerns that maybe 
a lot of veterans do not know this program exists and we have 
instances throughout the Nation clearly where the CWT Program 
is not an emphasis. And so they may not even know.
    For example, at the present time, the information that our 
Subcommittee has received is that the Bedford VAMC has more 
work assignments than veterans to fill them. So, I mean, you 
guys are doing wonderfully in terms of reaching out to the 
community and otherwise. It takes approximately a month to be 
enrolled in the program and it matches with what you said 
earlier, roughly 30 days to get in.
    By comparison, however, our investigation noted roughly a 
90 day wait in Houston while Dayton reported that they have no 
waiting periods, but they require the veterans to go into a 
training program called the Job Club for 30 days before they 
are assigned to a position and wait for acceptance and that the 
investigation revealed there that favoritism is reportedly a 
problem. And there appears to be some validity to this.
    Are you aware of that complaint there in Dayton?
    Mr. Campinell. Only recently we came to understand that 
there were issues at Dayton by virtue of preparation for this 
hearing that there was perhaps encouragement of the veterans 
who file a complaint about extending their time within the 
program or something about their delay in getting into the 
program.
    As a clinical model, it provides services based on the 
resources that the facility has made available to it and 
sometimes those resources can be quite high in a large program 
and at other times, it is quite low in a smaller----
    Mr. Johnson. Let's talk about the resources. You are a 
great straight man. You are playing the straight guy really 
good because that is my next question.
    In 2010, the VA's Vocational Rehabilitation and Employment 
Service conducted a work measurement study for a number of 
programs that included CWT to document the amount of time 
vocational rehabilitation counselors, employment coordinators, 
and vocational rehabilitation officers spend on various 
activities. The study's final report was released in April 2011 
and it made seven recommendations.
    Are you familiar with that report and those seven 
recommendations?
    Mr. Campinell. No, sir, I am not. And we are not part of 
VR&E, so I was not aware that there was any component of CWT 
being analyzed by the benefits division of the organization.
    Mr. Johnson. Well, it was. And I commend that report to 
you. Recommendation number one was adopt a workload model as 
the basis for determining staffing levels. In other words, 
let's determine the right numbers of people to make these 
programs successful.
    And I hope you are sensing certainly the tone of my 
questions. You have a successful program in Bedford. I am 
particularly interested in how you are going to roll that out 
across the country so that our veterans from shore to shore are 
able to receive the same kind of support and getting into this 
program that the ones in Bedford do.
    Mr. Kayse, let me turn to you. What initially drew you to 
the CWT Program in Iowa City?
    Mr. Kayse. When we first moved to Iowa from Texas, I tried 
to find work. I did find work at a hospital working in the 
trash department and laundry facilities. And it was not 
desirable. It was not what I wanted to do. So I started job 
seeking on my own.
    After numerous applications and resume writing and just 
nothing, you know, taking on, when I found out that my wife was 
meeting with an employment specialist, it really sparked the 
interest that I want to see what the VA is offering first.
    And then when I found out that they are going to assist me 
with the problems that I am having, the problems I am facing, 
it was like a win-win for everybody. And I was able to find new 
job leads that I did not know about and update and create a 
more permanent resume.
    Mr. Johnson. Okay. Based on your experience, what parts of 
the program there could be improved today? I mean, it is going 
very well today. You got any ideas on what part of the program 
could be improved?
    Mr. Kayse. In the program today that I am able to 
facilitate and coordinate, I think the biggest problem is 
veterans and their access to technology, whether that be able 
to do an electronic resume for the veterans that they can keep 
with them and be able to take that anywhere, to a library and 
be able to bring it up. I think that is the biggest barrier 
that we face.
    Also another barrier will be clothing, that they have a 
shirt and tie to go to an interview, and finding funding for 
that.
    Mr. Johnson. Okay. Did other veterans who were in the 
program experience the same type of success that you did?
    Mr. Kayse. Yes. I do have a veteran currently that I have 
been working with that is now employed by the VA medical 
center. She did go from military life to homeless life now to a 
VA job. I also have other veterans who have successful 
employment and it is just rated on how they feel and how their 
comfort level is.
    Mr. Johnson. Okay. All right. Well, thank you.
    We will go now to the Ranking Member for another round.
    Mr. Donnelly. Thank you, Mr. Chairman.
    This is for Dr. Campinell or Dr. Kerrigan. Some of the ways 
you are getting a chance to talk to our veterans are really 
creative, the places you are going to see them and talk to 
them.
    Do we have any program in particular in regard to this 
where we have reached out to psychiatrists or psychologists or 
federally qualified health centers or clinics or doctors 
saying, you know, if you can contact your veteran without 
violating any health protocols to let these veterans know that 
this process is out there?
    Mr. Campinell. Most definitely. It is a major part of the 
effort that goes on within CWT. Since it is a clinical program 
that requires a practitioner to provide orders to----
    Mr. Donnelly. Right.
    Mr. Campinell [continuing]. Participate in the program, 
outreach to the providers, educating them as to what the 
program can do, what it is for, which program seems most 
appropriate for a particular individual based on diagnosis is a 
constant effort.
    So our staff, the field staff at every medical center 
spends time meeting--they are either assigned to a treatment 
program such as the Mental Health Intensive Case Management 
Program or they meet individually with psychiatrists in the 
outpatient clinic and talk to them and present the idea of 
particular veterans with a serious disability participating in 
work.
    So, for example, in Supported Employment where we have the 
evidence-based practice of Supported Employment particularly 
focuses on veterans with psychosis, schizophrenia, bipolar 
disorder, traumatic brain injury, and spinal cord injury, so 
our staff become part of the treatment teams that work in those 
various departments and advocate for referral and participation 
by veterans with those particular disabilities.
    Mr. Donnelly. For instance, and, Dr. Kerrigan, maybe you 
can help with this, a veteran who does not use the VA and who 
is struggling, maybe uses a federally qualified health center, 
you know, like a south Houston, Texas health center or 
something. Are you in contact with those health centers to let 
them know, hey, if you have vets who have issues, who have 
challenges, you know, talk to them or let them know we are here 
in terms of employment help as well?
    Mr. Kerrigan. We are. We are talking to people in the 
community. First of all, a lot of people go to the employment 
office when they are out of work. We work with and the 
employment office often hires disabled outreach, disabled 
veteran outreach people themselves. These are veterans who work 
in the employment office who help with job search activity.
    We meet with them on a regular basis. We have somebody who 
comes into the hospital one day a week. The State voc rehab 
will also see people who want to go back to school to get some 
training with disabilities. They find out that this man or 
woman is a veteran.
    We have a network with the local Department of Assistive 
and Rehab Services and somebody who is at the VA once a week so 
that we can----
    Mr. Donnelly. And, Dr. Campinell, I do not know if you 
already do this and you may, but is there a way to find best 
practices from all of VA. The health clinics, the centers 
around the country, for instance, like Dr. Kerrigan going to 
the Salvation Army, of saying here is a list of 52 places where 
we need to be touching on a constant basis to see if they have 
veterans in need?
    Mr. Campinell. In an outreach model you are referring to?
    Mr. Donnelly. Right, in reaching out to try to find where 
our veterans are who may be in need of the service.
    Mr. Campinell. That might be helpful, yes. And we do have 
staff that spend considerable amount of time in the community 
looking for potential employers. And in those efforts, it is 
quite easy, I believe, for them to include an opportunity to 
make presentations to the various organizations.
    Many VA medical centers and CWT programs have joined the 
Chamber of Commerce, have joined the Better Business Bureau, 
and other types of community organizations and they tend to be 
specifically those organizations that have some connections to 
the business community, but they also have connections to--
those organizations have connections to other people who have 
veterans in their family or no veterans who are seeking. So I 
think it is a constant effort where that information is passed 
forward.
    And I wanted to comment in terms of information about the 
availability of CWT. I think last year, not even the whole 
fiscal--the fiscal year of fiscal year of 2011, we had about 
300 veterans referred to CWT from the VR&E Program for whom 
they felt the services that we provide would be better. So we 
promote even within our own structure.
    National Cemetery has two or three hundred veterans that 
work in the cemeteries around the country seasonally providing 
grounds keeping type of maintenance. And other Federal agencies 
are also providing services. National Archive System has a 
number of vets, a large number of vets working for them.
    There is a great deal of word of mouth among veterans as 
well. When they go back, even if they go into the readjustment 
counseling center and they have been working, they pass that 
information on.
    I have colleagues that have gone to VA medical centers for 
their own care who have been approached by a veteran who says 
go ask them about CWT because they have jobs for you.
    So the word of mouth among veterans is quite powerful.
    Mr. Donnelly. Thank you very, very much.
    Mr. Johnson. I will now go to Dr. Roe.
    Mr. Roe. Thank you.
    Just to dovetail on what Mr. Donnelly and Mr. McNerney were 
talking about, I wonder if we could or would it be helpful for 
us? You have less than 1 percent of the House of 
Representatives sitting here and obviously we did not know what 
was going on and we are on the Committee. I can assure you the 
other 431 out there do not have a clue what you are doing or 
mostly do not.
    So would it be beneficial if we on the Veterans' Affairs 
Committee at our local VAs or at our CBOCs hold a hearing or a 
public awareness program, with the VA to say this is one 
program that is available? I think one that has been incredibly 
successful in our area has been the HUD-VASH Program. We have 
gotten a lot of veterans off the street.
    And the limiting factor there is the number of case 
managers we have and then obviously finding the housing that 
you can put them in. But that is very much a piece of what you 
are talking about right here. The HUD-VASH Program is here.
    Would that be helpful?
    Mr. Campinell. The higher the level of public information 
that is shared particularly by Congress in terms of your role 
and representative services to your constituency, I think would 
be invaluable.
    Mr. Roe. That is something we should think about and our 
staff should think about how we put together a program. The 
other thing we could do is put this together in a little white 
paper to make sure that all the offices know that this is 
available.
    And, Mr. Kayse, another thing, we had a huge tornado in my 
district this year. Clothing will not be a problem. If you make 
that available and known, I can assure you--and I remember now 
it dawned on me locally, one of my good friends works at the VA 
and she would always ask me, well, do you have a suit or you 
have some ties, you know, that do not have mustard on them or 
whatever that we can use, and the answer is yes.
    And I think if you make that need known, that is solved. I 
really believe that. That one, we saw we had actually too many 
clothes after the tornado. So I think if you can let it be 
known what is needed, it will happen. And I do not think that 
will be an issue at all where a veteran can have a new suit. 
And I can assure you in our area, that would happen literally 
overnight.
    And I think the other one is how do we get the word out. We 
hear word of mouth, maybe a Web site. I think the media 
publicizing it would be important to let people know because I 
think this is an underused asset.
    The other thing, back to the Chairman's point, how do you 
replicate, how do you take the Bedford and replicate that model 
across the country so that in rural America where I am, it can 
work and in urban America where--Boston, I assume this is or 
near Boston can work? How do you do that?
    Mr. Campinell. Well, the Office of Mental Health has issued 
policy that applies to all VA medical centers that they will 
operate a CWT program that has both clinical models in it, both 
transitional work and supported employment.
    And in the approximately 4 years ago or 3 years ago when 
the mental health enhancement funds were released, 50 
facilities that had no programs at all were funded to establish 
a basic program with one staff for each of two those clinical 
models to operate within CWT.
    So at this point in time, we have 187 locations including 
some CBOCs. We have a program, two programs out on the 
reservation that is 300 miles away from the major city.
    So we have covered every facility both in terms of 
financial resources and we have established a policy that 
requires the provision of these services at some level within 
the structure of that organization.
    In addition, the resource planning model for VHA includes 
projections based on some complicated algorithm, includes 
projections that represent the increase in veterans potentially 
participating in CWT out for the next 10 or 15 years and 
becomes part of the calculations that go into VHA's budget for 
the forthcoming fiscal year that is related to that.
    So I think there are a lot of efforts going on to ensure 
that programs--we ensure consistency in the clinical model. We 
ensure resources so that they can establish a program and we 
ensure that VHA is utilizing the projections of needs of 
veterans that will participate into this program so that the 
budget structure includes an acknowledgment and recognition of 
them.
    Mr. Roe. Just one last comment and I will yield back. As 
congressmen, people will come up to you and thank you for 
helping them get their disability claim. But I think the most 
rewarding thing I have seen is a homeless veteran that is now 
gainfully employed.
    I really think that there was a complete failure when you 
see this veteran out on the street and to see them come up with 
a place to live and a job is one of the most rewarding things I 
have seen since I have been in Congress.
    And they will tell you stories that are just heart 
wrenching. And I think this program is vital to it. I really 
want to see it expanded and made more available and more 
successful to people. It has got to be rewarding for you all to 
see this happen too.
    Mr. Chairman, I yield back.
    Mr. Johnson. Thank you, Dr. Roe.
    Mr. McNerney.
    Mr. McNerney. Thank you.
    I am just going to make a comment following up on Dr. Roe's 
comment is we have a very successful program in Bedford and it 
is expanding. And as it expands, there is always the fear of 
the quality diminishing and the effectiveness diminishing.
    And I hear what you are saying about your efforts to make 
sure that does not happen. And I expect the chairman will be 
keeping an eye on this program to make sure that that is the 
case.
    So thank you.
    Do you have statistics or some idea of whether or not 
veterans that take advantage of the CWT Program have a lower 
unemployment rate than veterans in general and lower 
unemployment rates than their non-veteran contemporaries, non-
veterans in the same demographic categories?
    Mr. Campinell. I do not, sir. I only have measures of the 
results at point of discharge, but not a comparison to other 
veteran or non-veteran populations outside of the health care 
system.
    Mr. McNerney. Okay. So you do not have any sort of long-
term information on long-term success?
    Mr. Campinell. I do not. In terms of follow-up of the 
individuals that have participated, I do not, no.
    Mr. McNerney. That might be something that would be useful 
because it sounds like this is a program that we would like to 
put more resources into and we would like to have sort of 
evidence-based information as to whether that is a successful 
program in the long run and, if not, how adjustments can be 
made or follow-up can be made with individuals to make sure 
that they stay on track.
    Mr. Campinell. Well, I can speak to one specific instance 
which is a research model, a successful research program out of 
Tuscaloosa VAMC that provided supported employment specifically 
for veterans with PTSD.
    And their follow-up period, I think, was post 1 year and 
there was a three-time greater level of employment among 
veterans in that model at the 1-year period of follow-up than 
other veterans receiving services as usual.
    And I believe that Dr. Jack Drumming who is the chief of 
mental health at Bedford has some internal research of his own 
based on their programs that show similar results, that 
participation in the program does have a long-term positive 
outcome.
    But in terms of national numbers such as, you know, 
something the Department of Labor has access to or provides, I 
am not aware of anything.
    Mr. McNerney. Well, that would be a very powerful tool----
    Mr. Campinell. Yes, sir.
    Mr. McNerney [continuing]. In terms of getting support for 
the program.
    Mr. Campinell. Yes, sir.
    Mr. McNerney. I am a little surprised of one of the facts 
you mentioned, that only 11 percent of the participants are 
OEF, OIF, OND veterans. That seems kind of low to me.
    Is that just the proportion of those veterans to the 
overall number of veterans? How come that number is so low?
    Mr. Campinell. I can only say it might depend on the number 
of veterans that are the receiving care at the VA medical 
center and the type of care that they are receiving.
    Many of the veterans coming in from OIF, OEF are also 
service-connected. They have a service-connected disability and 
they are going to be eligible or they are already eligible for 
services from VR&E. So there may be more veterans going in that 
direction.
    There is also a great interest in the GI Bill, as you know, 
the current GI Bill. And a lot of veterans are availing 
themselves of that rather than the more traditional vocational 
rehabilitation models, as I understand it.
    Mr. McNerney. So maybe what you are saying is that the OEF, 
OIF are not the hard cases yet and the older veterans are the 
ones that really need this kind of help? I mean, obviously that 
is a generalization, but that seems to be where we are at.
    Mr. Campinell. Yes, sir.
    Mr. McNerney. Thank you.
    I yield back.
    Mr. Johnson. Well, I want to thank the panel for being here 
this morning. This wraps up our questioning and the panel is 
now excused.
    I hope that we can move forward from this hearing with a 
renewed commitment to ensuring the VA's CWT Program is sound 
throughout the whole country no matter whether a veteran lives 
in an urban area or a rural area.
    As I mentioned before, we should always be doing everything 
we can to help veterans who can and want to work and reenter 
the workforce, especially during this time of severely high 
unemployment.
    Just as they served and sacrificed for our country, so, 
too, must we now serve and care for our veterans when they 
return home.
    With that, I ask unanimous consent that all Members have 
five legislative days to revise and extend their remarks and 
include extraneous materials. And without objection, so 
ordered.
    I want to thank all Members and witnesses for their 
participation in today's hearing. And this hearing is now 
adjourned. Thank you very much.
    [Whereupon, at 11:07 a.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

           Prepared Statement of Hon. Bill Johnson, Chairman,
              Subcommittee on Oversight and Investigations

    Good morning. This hearing will come to order.
    I want to welcome everyone to today's hearing titled ``Is it 
Working: Reviewing VA's Compensated Work Therapy program.''
    The Compensated Work Therapy, or CWT, program is one of the VA's 
vocational rehabilitation programs designed to assist our warfighters 
back into the workforce. The program is specifically geared toward 
veterans who have suffered from mental illness, delivering a tailored 
approach for re-employment that provides support and guidance through 
the process.
    In a time of high unemployment, especially among veterans, we all 
must make every effort to match qualified workers with suitable jobs. 
The CWT program does just that, matching disabled veterans with 
employers.
    When done correctly, the CWT program is a ``win-win.'' We know of 
several success stories, including the program in Bedford, 
Massachusetts, that has partnered with over 15 community businesses. 
The businesses benefit from having qualified workers adding to 
productivity, and the veterans benefit from being employed. However, we 
also know of situations where little, if any, emphasis is placed on the 
program. Few partnerships are made with the community, and in the end 
it is the veteran who suffers.
    We share a common goal of assisting our veterans to reenter the 
workforce. A discussion on what the VA can do to sustain successful 
programs and rejuvenate struggling ones, in addition to what Congress 
and this Committee can do to help, will better enable us to achieve 
that goal.
    It is also my hope that today's hearing will provide the 
Subcommittee with a clear picture of the structure of the CWT program, 
from its national leader all the way down to the individual veteran at 
a VA facility.
    I also look forward to today's testimony and the chance to discuss 
how we can ensure that the CWT program is rolled out consistently and 
effectively all across the country. How can successful programs share 
their best practices with struggling programs? How can national 
oversight be improved? What kind of metrics are needed to effectively 
gauge success?
    It's not good enough merely to have well-intentioned programs. We 
need effective ones that consistently deliver results and improve the 
lives of our veterans.
    I now yield to Ranking Member Donnelly for an opening statement.

                                 <F-dash>
  Prepared Statement of Hon. Joe Donnelly, Ranking Democratic Member, 
              Subcommittee on Oversight and Investigations

    Occupational specialties have been an important part of the lives 
of our veterans, their identities are linked to their military 
occupation, therefore, illnesses that limit a veteran's ability to work 
once they have transitioned out of the military can have a significant 
impact on their self-esteem.
    Being part of the Committee on Veterans' Affairs for the past 5 
years, I am aware of the unique needs veterans with mental illnesses 
have. Homeless veterans, veterans with brain injuries, post-traumatic 
stress disorder and other mental health problems require a prolonged 
individualized rehabilitation plan. Providing them a rehabilitation 
plan that will help them lead an independent life is important, 
providing them the tools they need to obtain meaningful employment, is 
even more and that's why CWT is critical for these veterans.
    The benefits of the CWT program are many, it provides veterans with 
skills training, job development, placement services, and employment 
support. But not a lot is known about this program and I fear that not 
many veterans know about this program as well. Because a veteran must 
be referred by a clinician many veterans that would benefit from CWT 
are not aware of it and may not know to ask their doctor about it.
    Recently, I came across a blog discussion on CWT, in it, most of 
the individuals talk about their positive experience and discussed 
their successful rehabilitation. But there were a couple of individuals 
who said their local VA clinic was short staffed and didn't provide the 
service and treatment they needed. Programs like CWT need to be 
successful nationally, it is unfair for veterans to get poor quality 
treatment in some VA clinics while others get better treatment. These 
regional disparities undermine the work VA is capable of providing.
    I look forward to learning more about this program, the services 
you provide to our veterans in need, and what you are doing to provide 
consistent treatment to all veterans.

                                 <F-dash>
       Prepared Statement of Anthony Campinell, Ph.D., Director,
             Therapeutic and Supported Employment Programs,
  Veterans Health Administration, U.S. Department of Veterans Affairs

    Chairman Johnson, Ranking Member Donnelly, and Members of the 
Subcommittee: thank you for the opportunity to discuss the Department 
of Veterans Affairs' (VA) Compensated Work Therapy (CWT) program. I am 
accompanied today by my colleague Anthony Kerrigan, Ph.D., CWT 
Coordinator at the Houston VA Medical Center. Also accompanying me 
today is Mr. Sean Kayse, a U.S. Army Veteran recently hired by VA, who 
will discuss his experience in the CWT program in Iowa.
    CWT provides Veterans whose lives have been disrupted by mental 
illness or coexisting physical disabilities with a supportive, stable, 
structured approach to help them achieve their employment goals. 
Currently, almost 750,000 Veterans under age 50 are not in the labor 
force due to various disabilities or illnesses, including serious 
mental illness. Employment is an important personal goal and 
contributes to a positive self image and a sense of purpose, and is a 
critical element for people recovering from mental health issues. 
Congress formally established CWT for VA in 1984. The program has grown 
substantially over these 27 years, with over 41,000 Veterans receiving 
CWT services at 187 locations in Fiscal Year (FY) 2011, and an 
additional 26,000 Veterans receiving other forms of vocational 
rehabilitation. In addition to its clinical benefits, CWT serves as a 
complement to other employment services available from the Veterans 
Benefits Administration, the Department of Labor, or state employment 
agencies.
    My testimony today will begin by providing an overview of the CWT 
program, including its purpose and functions. It will then describe the 
leadership and organization of the program, and conclude with a review 
of some of the program's major successes, as well as its challenges.

Overview of CWT Program
    CWT programs provide vocational rehabilitation services by medical 
prescription to Veterans, many of whom have extensive barriers to 
employment. A majority of persons with a disability want to work. The 
core philosophy of CWT is that all persons with a disability can work 
when provided with the necessary supports, and thus no one should be 
excluded from the opportunity to participate in meaningful employment. 
CWT programs serve eligible Veterans, including those with service-
connected disabilities, Veterans who have been involved in the justice 
system, and Veterans with active addictions. Many have serious mental 
illness, including psychotic disorders; serious physical disabilities 
co-occurring with mental health diagnoses; and Spinal Cord Injury and 
Traumatic Brain Injury. In addition, CWT programs include homeless 
Veterans and Veterans who have been out of the workforce for an 
extended period of time, in some cases, since discharge from the 
military. VA benefits, including service-connected compensation and VA 
pension, cannot be reduced, denied, or discontinued based on 
participation in either CWT or Incentive Therapy (IT).
    CWT programs are available in both urban and rural areas, as well 
as in remote and difficult to access locations. For example, CWT 
services are provided through the Black Hills Health Care System and 
Rapid City VA Medical Center in South Dakota. These facilities extend 
access to Native American Veterans on the Standing Rock Lakota Sioux 
Indian Reservations in McLaughlin, SD, Eagle Butte, SD, and Pine Ridge, 
SD, on the Pine Ridge Indian Reservation. The CWT program and services 
in these remote and isolated locations offer economic stability and a 
recovery-based culture for the participating Veteran and his or her 
family alike.
    CWT provides a number of options for Veterans who are looking to 
get back into the workforce. These options include the following:
    Incentive Therapy (IT): This is a pre-vocational work restoration 
program that authorizes the assignment of patients to various hospital 
work situations. IT provides a diversified work experience at those VA 
medical centers that choose to incorporate it for Veterans who exhibit 
severe mental illness or physical impairments. IT services may consist 
of full or part-time work with remuneration limited to the maximum of 
one half of the Federal minimum wage and paid on an hourly basis. IT 
participants provide services in various ``jobs'' or roles: escorting 
Veterans to and from appointments; delivering messages and 
communications; and providing a range of assistance to program areas, 
including light cleaning, picking up lunches, and folding items. Hours 
of work may be adjusted from as little as 1 hour per day to 8 hours per 
day, based on the Veteran's work stamina and treatment goals. IT also 
provides an opportunity for VA to assess Veterans in a more independent 
but clinically supportive environment.
    Sheltered workshops: These activities are operated at approximately 
35 VA medical centers nationally. CWT sheltered workshop is a pre-
employment vocational activity that provides an opportunity for 
assessment and the development of work skills in a simulated work 
environment. Veterans participate in a wide variety of work, from 
advanced printing, including business cards and engraving, to furniture 
upholstery, with participating Veterans paid on a piece rate basis 
commensurate with the type of work performed.
    CWT/Transitional Work (CWT/TW): This is a pre-employment vocational 
assessment program that operates in VA medical centers and local 
community businesses. CWT/TW is provided at many National Archives and 
Record Administration (NARA) Federal Record Centers and National 
Cemeteries. Participants are matched to real-life work assignments for 
a time-limited basis. Services may relate to work in janitorial/
housekeeping, food service, warehouse, prosthetics assistant, and 
grounds maintenance. Veterans are supervised by personnel of the 
sponsoring site, under the same job expectations experienced by non-CWT 
workers. CWT/TW participants are not considered employees and receive 
no traditional employee benefits. Participants receive no less than the 
greater of Federal or state minimum wage, depending upon the type of 
work performed. The CWT/TW program offers real training to Veterans and 
provides an avenue to competitive jobs in these Federal agencies.
    CWT/Supported Employment (CWT/SE): This is an evidence-based 
practice which has been demonstrated to assist Veterans with the most 
severe psychiatric disabilities to achieve competitive employment and 
community integration with extensive clinical supports. CWT/SE was 
implemented nationally in 2005 as part of VA's recovery transformation 
efforts, and has since been highlighted in a RAND report as a gold 
standard mental health program. CWT/SE services are individualized and 
intensive, and are integrated as part of the Veteran's mental health 
treatment. When the Veteran is able to maintain employment 
independently, CWT/SE services are phased out and support is provided 
by the clinical team and natural supports in the Veteran's community. 
CWT/SE is routinely provided to Veterans with psychotic disorders. 
Additionally, VHA's Therapeutic and Support Employment Services (TSES) 
works in partnership with VA researchers to expand SE services to a 
broader audience. CWT/SE services have been provided to Veterans living 
with spinal cord injury and traumatic brain injury as part of VA-
sponsored research. A recently concluded 2011 study of SE for Veterans 
with post-traumatic stress disorder (PTSD) funded by the VA Office of 
Research and Development was so successful in improving rates of 
employment among Veterans receiving SE that a new, larger study is in 
the planning stages with the VA Cooperative Studies Program.
    Homeless Veterans Supported Employment Program (HVSEP): This 
program provides vocational assistance, job development and placement, 
and employment support designed to improve employment outcomes among 
homeless Veterans. In FY 2011, VA medical centers started to receive 
funding for HVSEP. The program is coordinated between the CWT and 
Homeless Veteran Programs. VA has provided funding to hire 407 
Vocational Rehabilitation Specialist positions to support this 
initiative. These employees have been trained and integrated into the 
range of VA Homeless services, including the Health Care for Homeless 
Veterans (HCHV), Grant and Per Diem (GPD), Department of Housing and 
Urban Development-Department of Veterans Affairs Supportive Housing 
(HUD-VASH), Domiciliary Care for Homeless Veterans (DCHV), Health care 
for Re-Entry Veterans (HCRV), and the Veterans Justice Outreach 
Initiative (VJO) programs for the purpose of providing community-based 
vocational and employment services. All the HVSEP Vocational 
Rehabilitation Specialists hired are themselves Veterans who are 
homeless, formerly homeless, or at risk of homelessness.
    Vocational Assistance: This CWT support provides a set of 
assistance, guidance, counseling, or other services that may be offered 
to individual Veterans or groups. These services enable Veterans to 
identify skills, resources, attitudes, and expectations needed when 
searching for employment.

CWT Leadership and Organization
    The CWT program is an element of the VHA's Therapeutic and 
Supported Employment Services section (TSES) in the Office of Mental 
Health Operations. TSES is responsible for overseeing CWT and IT 
programs. These two programs are authorized by 38 United States Code, 
Section 1718, to integrate remunerative work restoration services and 
vocational rehabilitation and employment support into treatment 
planning for Veterans receiving care in VA's health care system.
    VHA Central Office TSES staff consists of a Director and four 
Program Planning Specialists, who function as liaisons and support 
staff for assigned Veterans Integrated Service Networks (VISN); two 
Supported Employment Specialists; one Program Analyst; and one staff 
member who works closely with both TSES and Homeless Services to 
support the Homeless Veterans Supported Employment initiative. TSES 
provides guidance for implementing CWT programs and interpreting policy 
in collaboration with networks and facilities.
    A major effort of the TSES program is conducting fidelity reviews 
of the CWT/SE program. These reviews follow a standardized procedure to 
assess SE program implementation barriers and successes. TSES uses the 
results of these reviews to assist programs in their ongoing quality 
improvement efforts through recommendations and technical assistance to 
the CWT Program Management as well as facility and service line 
leadership. In FY 2011, 68 fidelity site visits were conducted, and the 
results of these reviews showing strengthened levels of employment 
implementation were disseminated nationally through the VA Northeast 
Program Evaluation Center's reporting system.
    In addition, TSES organizes national conferences to train CWT 
staff, participates in monthly conference calls to address local and 
national issues, and conducts onsite training visits upon request. VHA 
provided five training visits to approximately 175 staff in FY 2011 in 
response to requests from facilities for consultation.
    In accordance with VHA Handbook 1163.02, Therapeutic & Supported 
Employment Services Program, each facility is responsible for 
appointing a TSES Vocational Program Manager. The facility program 
manager is responsible for implementing the policy and procedures for 
establishing and operating a TSES program in accord with the VHA 
Handbook guidance. CWT program implementation occurs at the local level 
to include CWT hiring decisions, staffing levels, and program manager 
duties. In addition, each individual facility makes decisions regarding 
the use of Transitional Workers.

CWT's Successes and Challenges
    Collectively, these efforts are making a difference. All told, TSES 
programs provide paid work experience, competitive employment, and 
vocational assistance services to almost 70,000 Veterans each year, 
approximately 11 percent of whom are Operation Enduring Freedom/
Operation Iraqi Freedom/Operation New Dawn (OEF/OIF/OND) Veterans. In 
FY 2011, the IT component of TSES served over 7,000 Veterans; the CWT/
TW component served over 29,000 Veterans; and the CWT/SE component 
served over 14,000 Veterans, a 12 percent increase over FY 2010. An 
additional 29,300 Veterans received vocational assistance services. 
Veterans in TSES programs earned in excess of $60 million as a result 
of their work. Earnings generated through IT, CWT/Workshops, and CWT/TW 
are also tax exempt and excludable as income for Social Security 
Supplemental Security Income (SSI) program purposes. This exemption 
enables Veterans who receive disability income to take advantage of the 
skills learned at TSES programs and develop these work skills without 
fear of losing their benefits.
    In FY 2011, TSES provided CWT services at 187 program locations and 
90 IT program locations. Of 11,267 Veterans who were discharged from 
CWT/TW and CWT/SE Programs who were entered into the VA Northeast 
Program Evaluation Center program evaluation database, 27 percent were 
placed in community-competitive employment at discharge, with an 
additional 8 percent leaving CWT to pursue formal training, higher 
education, or volunteer work. Forty-six percent remained unemployed, 
13.8 percent retired, and information is unavailable on the remainder. 
Since May 2011, the Homeless Veterans Supported Employment Program has 
served 2,564 Veterans, 27 percent of whom have been placed in community 
employment.
    The Commission on Accreditation of Rehabilitation Facilities (CARF) 
has accredited VA outpatient mental health services for over 15 years. 
All CWT programs with 4.0 Full-time Employee Equivalents or more (86 
total) have received a 3-year CARF/Employment and Community Services 
accreditation, the highest level score for quality rehabilitation 
services. CARF accreditation recognizes that CWT programs are providing 
efficient, effective services that result in high levels of stakeholder 
satisfaction. Smaller programs are not required to be CARF accredited 
at this time.
    Notwithstanding these successes, the CWT program faces several 
challenges. TSES staff has received reports about staff and funding 
variations across local programs that sometimes result in delays in 
patient enrollment. We also understand from CWT program staff that 
there is growing demand for CWT services. Funding for CWT programs 
comes from both national sources (for TSES staff) and from VA facility 
budgets (for local programs). Funding is also received at the local 
level from employers who contract with CWT programs to hire Veterans 
enrolled in CWT. We are exploring new opportunities to standardize and 
simplify the funding stream, which will also provide VA greater 
oversight of how revenues are used across the system.

Conclusion
    Thank you again for the opportunity to share information about VA's 
efforts to provide vocational rehabilitation services to Veterans. VA 
is dedicated to improving Veterans' overall quality of life through a 
vocational rehabilitation experience in which Veterans learn new job 
skills, strengthen successful work habits, and regain a sense of self-
esteem and self-worth. My colleagues and I are prepared to answer any 
questions you may have.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
